No. 19-635

 

IN THE

Supreme Court of the United States

DONALD J. TRUMP,
Petitioner,
v.

Cyrus R. VANCE, JR., in his official capacity as
District Attorney of the County of New York;
Mazars USA, LLP,

Respondents.

On Writ of Certiorari to
the United States Court of Appeals for the Second.
Circuit

BRIEF FOR AMICI CURIAE
WASHINGTON STATE TAX PRACTITIONERS
IN SUPPORT OF RESPONDENT VANCE

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,901 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 4, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
